1

No.

2
IN THE

3
4

SUPREME COURT OF THE UNITED STATES

5
6

EDWARD BINNS- PETITIONER
-V-

7

SuPrem

8

UNITED STATES OF AMERICA,

9

et al., -

10

«o«,Us.

JUN 3 0 2020

RESPONDENT(S)

ON PETITION FOR WRIT OF CERTIORARI TO

2£ficeof

11
12

UNITED STATES COURT OF APPEALS FOR THE 9TH CIRCUIT

13
14

PETITION FOR WRIT OF CERTIORARI

15
16
17
18
19
20
21

EDWARD BINNS
P. O. BOX 60095
Los Angeles, Ca 90060
(323) 289-4824
IN PRO SE

22
23
24
25
26

Received

27

•ML I0 2B20

28

\3

i
2
3
4

QUESTION(S) PRESENTED

5
6
7

WHETHER AN EQUAL EMPLOYMENT OPPORTUNITY COMMISSION

8

COMPLAINT FILING, IN THE UNITED STATES DISTRICT COURT

9

WOULD BE TIMELY FILED FOR A TITLE 7 ACTION, UNDER THE

10

HOLLAND -v- FLORIDA, 560 U. S. 631 (2010), U S SUPREME COURT

11

EQUITABLE TOLLING PRINCIPLES WHEREAS IN THIS INSTANT

12

PETITIONER'S CASE, EXTRAORDINARY CIRCUMSTANCES STOOD

13

IN HIS WAY AND PREVENTED TIMELY FILING OF APPEAL FROM

14

EEOC DECISION, AND OR ITS INCORRECT FILING UNDER 42 USC

15

1983 RESULTING IN RES JUDICATA AND COLLATERIAL ESTOPPEL

16

RECOVERY BAR?

17
18
19
20
21
22
23
24
25
26
27
28

LIST OF PARTIES

[/] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

TABLE OF CONTENTS

1
2
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

7

REASON(S) FOR GRANTING THE WRIT

7

8

CONCLUSION

3
4
5
6

9
10
INDEX TO APPENDICES

11
12
13 APPENDIX A -

Memorandum of the 9th Circuit Court of Appeals

14 APPENDIX B -

Order

15 APPENDIX C 16 APPENDIX D -

Notice of Appeal
Complaint- Pro Se

17
18
19
20
21
22
23
24
25
26
27
28

ii

TABLE OF AUTHORITIES CITED

1
2
3

PAGE No

CASES

4
5
6
7

7

Allen V. McCurry, 449 U S 90, 94 ( 1980)

2

Cramwell -v- Sac City, 94 U S 351

7

Holland -v- Florida, 560 U S 631 (2010)

8
9

STATUTES AND RULES

10
jj

7

Federal Rules of Civil Procedure, Rule 15

12 Title 7 of the Civil Rights Act of 1964

7

13 42 USC 1983

7

14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

iii

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[/] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

/Tto

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[✓] is unpublished.
d

The opinion of the United States district court appears at Appendix
the petition and is .
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[y-] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix ____ to the petition and is
[ ] reported at
5 or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

//

JURISDICTION

[/] For cases from federal courts:
The date on whiph the United States Court of Appeals decided my case
was
(Vf No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: __________ _
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including _
(date) on
(date)
in Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) in
(date) on
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1
2
3
4
5

6

1.

Federal Rules of Civil Procedure, Rule 15 (Amendment of the Pleadings )

2. United States 14th Amendment to the Constitution (Due Process Rights )
3.

42 U S C 1983 - Civil Rights Act of 1964 (Color of Authority Violation )

4. Title 7 of the Civil Rights Act of 1964

(Discrimination / Retaliation)

7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

2

1
v_^\

STATEMENT OF CASE

2
3

On 1-6-58, at the age of 17,1 started my employment with the United States Postal

4
5

Service. Lucille Ashford, PES-25 was the Manager. I was consistently sexually harassed by

6

Lucille Ashford, PES-25 for many many years. She never let me get promoted, even though she

7

!i

was aware I was qualified for several different positions within the Post Office.

8

There are numerous incidents that support the unwelcomed sexual misconduct,, (I,
9t

10
11

Edward W. Binns hereinafter referred to as Plaintiff) was forced to endure from the PES-25,
Lucille Ashford,, but because this is a synopsis of the allegations, as of this time I will just name

12- the most problematic. I am more than willing to go into depth when the necessary time arrives
13
14

and in my effort to justify the asking for a justification of all the incidents this Plaintiff has had to
endure.

15
16

Two early incidents were: Feb. 6 1968, Lucille Ashford had Issaac Baker murdered. In

17

January 1970 Lucille Ashford caused Plaintiffs wife to be sexually assaulted in her home and

18

her two sons were traumatized.

19
20

After the nine years seniority, on or about January, 1967 Plaintiff was the third
individual to qualify for the position. I successfully bid and did in fact obtain the position..

21
On or about Feb. 10, 1972 Plaintiff received a California Real Estate Sales License with
22;
23
24
25
26:

Deloy Edwards Realty Company , a copy which Lucille “Jones” Ashford is and was the cousin
of the owner Deloy Edwards.

;
i

Thereafter in June 1973, Plaintiff was allowed to pass the U.S.P.O Supervisors
examination, and while in training Plaintiff was warned by another postal employee not to

j
I
i

2?
28

3

.

i

1

1

2

become a supervisor. Now Plaintiff knows the reason, Plaintiff was allowed to pass the

3

examination

4

On May 8,1975, Plaintiff was severely injured by another postal employee and was

5

hospitalized. Plaintiff received eight (8) stitches to close the stab wound.. Plaintiff later suffered

6

with post traumatic disorder Plaintiff was put on notice by the Dept of Labor, San Francisco
7

Workers’ Compensation. Neither Plaintiff nor his family was ever given any counseling or

8

9

i

therapy to cure or give any relief for any disabilities. Although this was an on the job injury,

10

nothing was done to the assailant. Lucille Ashford was found guilty in part 444 Appeal Hearing

11

of committing industrial homicide and taking his career liveliood away from him as this was

12

!
■

considered industrial homicide by attempting to murder me during the course of my supervisory

13
14

duties as U.S. Postal Supervisor. After the injury there was fraudulent concealment by the Postal

15

Authorities and Kaiser Permanent. Because of fraudulent concealment of the true existence of

16

my injuries, it took seven (7 ) years to give me my first workers compensation check.

17
18
19

f

I was wrongly forced to go back to work after the injury, when I in fact could not perform
my job. I was separated by being given disability retirement that did not concur with my on the
LAl«ft

20

22:

!
I

violation of my rights.
Because of the injury I could not continue with my real estate or postal career. A Part 444

23

Appeal Hearing was held on May 12,1977. I was off work from June 24,1976 to 1-17-78.

24;

Kaiser misdiagnosed my injury and I was forced to go back to work on January 17, 1978. At the

25:

i

i

job injuries . 1 was‘given worker’s compensation without due process of law which is a
21

j

Part 444 Hearing my attorney stated that my termination was not in my best interest of the Postal

26'
27
'

Service. However it was a wrongful termination.. A fraudulent injury report was made on May

28

H
C

I

1
t

2

9, 1975. I did not see the report until February 4, 2016. Prior to receiving the report, I had made

3

nine (9) separate request to see the report. I did not receive a copy of said report until 2-4-16, I

4;

went 35 years and did not find out until 2010 that I had post traumatic stress disorder. Worker’s

5

Compensation was given starting 1 -15-82 without due process of law or a hearing.

1

As stated I

6

have not been able to work since 5-9-75. Kaiser attempted to force me to use their medication. I
7
8*
9i

10
11
12!

was given disability retirement that did not concur with my 5-8-75 injuries. My injury should
have been worker’s compensation since May 9,1975.
1

Plaintiff was forced into a fraudulent Chapter 11 Bankruptcy Nov. 5, 1981 (LA811VV11WL) and thereafter lost all Plaintiffs real estate.
Plaintiff was given lifetime Federal workers compensation without due process of law.

13:
14:

Plaintiff has not been treated fairly for his May 8,1975, injury by any doctor until June 21, 2010.

15.

After 35 years of Edward Binn’s May 8, 1975 on the job injury, being misdiagnosed (proof of

16:

fraudulent injury report, CA-1 and also medical malpractice ) , a qualified medical physician,

17:

Emelita B. Talag, M.D., diagnosed Edward W. Binn’s May 8, 1975, traumatic psychotic disorder

18

NOS (298.9) and post traumatic stress disorder 309.81), symptoms typically started within three

19

months of Edward Binn’s May 8, 1975 traumatic injuries. . After 9 request for copies of the May

■:

20
21:

8, 1975, injuries , the CA-1 of Edward Binns, May 8, 1975, traumatic injuries claims examiner

22

Mary Mabra sent the May 8, 1975, fraudulent report of injuries, the CA-1 to Edward W, Binn’s

23

signature was forged by United States Postal General Foreman PES-17 Jo Anne M. Dotson.

24
2$

April 16, 2017, Easter Sunday, Eric A. Binn’s, 55, high school teacher died prematurely.

1
!

Aug. 17„ 2017 and Nov. of 2017, Edward Binn’s had two heart attacks (post traumatic stress

26

disorder). Jan.because of the Feb.4, 2016, fraudulent report of Edward Binn’s May 8, 1975,
27
28

5,
!

(

1
2

t

3

report of injury that Edward Binns had never seen, he was now filing his timely claim against the

4

United States Postal Service and after their six months to answer, they never did answer. Now

5

Edward Binns must file his claim in the District Court before his six months are up, January 30,

6
7

2019.

8
i

9
10
11
12
13
14
15

I;

16
17
18
19
20
21 !
22
23
24
25;
26
27

£

28
f

1

REASON FOR GRANTING THE PETITION

2
3
4
5
6

A. The Petition would resolve an important and compelling question involving three (3 ) cases cited
in this Petition. The 9th Circuit Court of Appeals' Memorandum dated 4/21/2020 analysis and or findings
fails to address the underlying deeper and enduring disagreement amongst the court of appeals over what
constitutes Res Judicata, Collateral Estoppel in an EEOC Action that's being litigated by a Pro Se Litigant where

7

the federal Rules of Civil Procedure, Rule 15 Amendment of the Pleadings would cause such pleadings to be

8

timely filed light of the petitioner POST TRAUMATIC STRESS DISORDER Condition.

9
10

B. The Court of Appeals has entered a decision in conflict with the decision of another U S court of appeals

11 on the same important matter; has decided an important federal question in a way that has so far departed from the
12 accepted and usual course of judicial proceedings or has sanctioned such adeparture by a lower court, as to call for
13 an exercise of this Court's supervisory power.
14
15

C. The Court of Appeals for the 9th Circuit has decided an imortant question of federal law that conflicts with

16 reelevant decisions of this court, such as the Holland -v- Florida (2010), supra decision on what constitues
17 equitable tolling in a EEOC action.
18
19
20
21
22
23
24
25
26
27
28

In Holland -v- Florida, the U S Supreme court held that a plaintiff is entitled to equitable tolling if he shows
that he has been pursuing his rights diligently and some extraordinary circumstance stood in his way and prevented
timely filing of the appropriate pleading .
The District court in this case dismissed the petitioner's complaint with prejudice opposed to first determining
whether the facts stated in the complaint warranted amendment for an EEOC Complaint opposed to a 42 USC 1983
Cause of Action. The district court cited and relied upon Allen -v- McCurry, 449 U S 90 ( 1980) to dismiss
petitioner's mistakenly titled 42 USC 1983 complaint on the ground of res judicata precluding relitigation of the
claim, yet petitioner has never had the opportunity to litigate his complaint and have it decided by a competent
court on the MERITS of his Complaint. The case is far to important to have it dismissed on technical grounds.
7.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

